Audit Report 97-10 - Table of Contents
IMMIGRATION AND NATURALIZATION SERVICE
WORKFORCE ANALYSIS MODEL
Audit Report 97-10, (3/97)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
Objectives
Scope and Methodology
Background
FINDINGS AND RECOMMENDATIONS
I. PROJECTIONS
II. REPORTS
III. VALIDATION
IV. LAND BORDER PORTS' WORKLOAD ACCURACY
OTHER MATTERS
STATEMENT ON MANAGEMENT CONTROLS
APPENDIX I - Scope and Methodology
APPENDIX II - Background
APPENDIX III - Air Ports-of-Entry Output Reports
APPENDIX IV - Terms and Definitions
APPENDIX V - INS Comments on the Audit Recommendations
APPENDIX VI - Office of the Inspector General, Audit Division
Analysis and Summary of Actions Taken to Close Report
EXECUTIVE SUMMARY
The Immigration and Naturalization Service (INS) has invested approximately $1.35
million and 5 years of effort to refine and implement a computer modeling program called
the Workforce Analysis Model (WAM). The purpose of WAM was to develop an objective means
to allocate staff at ports of entry. The purpose of our audit was to determine if WAM
produces useful analyses and accurately identifies INS's workforce needs at ports of
entry.
According to the Justice Management Division's budget staff, WAM's projections of staffing
levels are beginning to be used by INS to support budget requests to Congress for
additional positions. During the FY 1997 budget process, WAM's output was identified in
budget documents that were used as support for the Attorney General's March 27, 1996,
testimony before the House of Representatives Appropriations Subcommittee for the
Department of Justice. In those documents, a "complex staffing model" (WAM) was
mentioned as the support for the request of an additional 150 land border inspectors and
153 additional staff at airports.
To be useful, a computerized staffing model must accurately simulate the workload,
consider the flow of the workload over time, match the available workforce against that
workload, and accurately project and report the optimum number of staff needed and when
they are needed. Although we believe the concept of computer modeling can be a useful and
valuable analytical tool, WAM, at the time of our review, could not be relied upon to
accurately determine the optimum number of inspectors needed at a port of entry (POE). The
following is a summary of the findings, which are discussed in detail in the body of the
report. Specifically, we found:
 There is no assurance that WAM will determine the optimum number of inspectors
needed at a port of entry, because it only projects inspectors needed above the inspectors
entered in the shift schedules. Further, WAM will not detect overstaffed work shifts or
project staff decreases when needed.
 WAM output reports could present the data in a more useful format to assist
Headquarters Inspections and port directors with managing and staffing their ports
efficiently.
 Neither the inspection processing times, developed by the ports, nor WAM's
output projections have been validated through a documented process.
 Vehicle and pedestrian counts at some land border ports were either estimated or
had to be prorated to an hourly basis using a profile based upon judgment.
Prior to the release of this report, we provided a draft version to the INS and
requested written comments on the recommendations. The INS agreed with all of our
recommendations. (See Appendix V for the INS' Comments.) Based on those comments, the INS
has taken adequate actions to close Recommendations 1 and 3. Actions to close
Recommendations 2, 4, 5, 6, and 7 are still in process. Therefore, this report is
resolved, but not closed.
#####